No. 19-433

3Jn the supreme Court of the lniteb States
PATRICK EMANUEL SUTHERLAND,

Petitioner,
V.

UNITED STATES OF AMERICA

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Barry J. Pollack, a member of

the Bar of this Court, certify that the Reply Brief for the Petitioner in the abovecaptioned case contains 2,984 words, excluding the parts of the brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 21st day of January, 2020.

